CERTIFICATE OF SERVICE
No. 20CALIFORNIA PARENTS FOR THE EQUALIZATION OF EDUCATIONAL MATERIALS;
VISHNUKUMAR THUMATI, individually and as parent and next friend of P.T. and
N.T.; and SHAILESH SHILWANT, individually and as parent and next friend of P.S.
and P.S.S.,
Petitioners,
v.
TOM TORLAKSON, in his official capacity as State Superintendent of Public
Instruction and Director of Education for the California Department of Education,
et al.,
Respondents.
I, Carter G. Phillips, do hereby certify that, on this sixteenth day of February,
2021, I caused a copy and an electronic copy of the Petition for a Writ of Certiorari
in the foregoing case to be served by first class mail, postage prepaid, and by email,
on the following parties:
THOMAS H. PROUTY
California Department of Education
1430 N Street
Suite 5319
Sacramento, CA 95814
(916) 319-0435
tprouty@cde.ca.gov

KATHERINE ANN ALBERTS
Leone & Alberts
2175 N. California Boulevard
Suite 900
Walnut Creek, CA 94596
(925) 974-8600
albertsk@stubbsleone.com

ALESA SCHACHTER
Johnson Schachter & Lewis APC
2180 Harvard Street
Suite 560
Sacramento, CA 95815
(916) 921-5800
alesa@jsl-law.com

JOHN GARLAND GHERINI
University of California
Office of the General Counsel
1111 Franklin Street
8th Floor
Oakland, CA 94607-5200
(510) 987-0863
john.gherini@ucop.edu
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

